          Office of Inspector General




September 18, 2006

ALEXANDER LAZAROFF
VICE PRESIDENT, EASTERN AREA OPERATIONS

JERRY D. LANE
VICE PRESIDENT, CAPITAL METRO OPERATIONS

SUBJECT: Transmittal of Audit Report – Mail Transport Equipment Service Center
         Network – Highway Transportation Routes – Greensboro
         (Report Number NL-AR-06-010)

This is one in a series of reports that presents results from our self-initiated nationwide
audit of the mail transport equipment service center (MTESC) network (Project Number
06XG023NL001).

The objectives of our audit were to determine whether management implemented audit
recommendations from our report, Mail Transport Equipment Service Center Decision
Analysis Report, Performance and Financial Benefits (Report Number TR-AR-01-003,
dated May 4, 2001), and whether there were additional opportunities to save money.
The report, initiated in response to a Board of Governors request, concluded the
network would not achieve the financial benefits anticipated by the 1997 Decision
Analysis Report. We recommended, in part, that management reduce cost by analyzing
transportation requirements and other costs associated with the network.

This follow-up report focuses on whether there were opportunities for the U.S. Postal
Service to save money by reducing the number of highway round trips originating at the
Greensboro MTESC. The Greensboro MTESC provides service to mail processing
facilities in the Postal Service’s Eastern and Capital Metro Areas.

We concluded the Postal Service could save approximately $1,607,510 over the term of
existing contracts by canceling, not renewing, or modifying 73 round trips originating at
the Greensboro MTESC. The trips could be eliminated without affecting customer
service by consolidating loads to more fully utilize trailer capacity. This amount
represents funds put to better use and will be reported as such in our Semiannual
Report to Congress.
Management generally agreed with our findings and recommendations. They stated
that they had eliminated or substituted for 53 of the 62 trips they agreed to eliminate and
that they would assess the 11 trips they agreed to assess. They also agreed the trip
eliminations would potentially save $1,536,397. To accommodate operational changes
occurring after the issuance of our draft report, management explained they would not
eliminate nine trips they initially agreed to eliminate, and they provided supporting
documentation. While we continue to believe our initial trip reduction proposals and the
associated potential savings are valid, we will examine the additional documentation
management provided and work with management to reconcile the differences during
the process of closing our significant recommendations. Management’s comments and
our evaluation of these comments are included in the report.

The U.S. Postal Service Office of Inspector General (OIG) considers all the
recommendations significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation that the recommendations can be
closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2300.


 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Paul E. Vogel
    Anthony M. Pajunas
    James R. Hardie
    Steven R. Phelps
Mail Transport Equipment Service Center Network –                                NL-AR-06-010
 Highway Transportation Routes – Greensboro


                                       INTRODUCTION
 Background                    The mail transport equipment service center (MTESC)
                               network is a system of 22 contractor-operated service
                               centers designed to supply mailbags, carts, hampers, and
                               other mail transport equipment (MTE) to mail processing
                               facilities nationwide. The service centers deliver equipment
                               to users with dedicated transportation.




   The MTESC network has
          dedicated
       transportation.

    Our 2001 audit report
    identified $1 billion in
        potential MTE
     transportation cost
          overruns.

   This MTE tractor-trailer
    was photographed in
    March 2006 near the
    Greensboro MTESC.




                               The U.S. Postal Service presented the original plan to
                               create the network to its Board of Governors (BOG) in the
                               Decision Analysis Report (DAR), Mail Transport Equipment
                               Service Center Network, dated May 13, 1997. The DAR
                               forecasted costs exceeding $3.6 billion over 10 years and
                               the BOG approved it in June 1997. The new network
                               became fully operational in January 2000. From the outset,
                               allegations of poor performance and excessive costs
                               troubled the new network. As a result, the BOG asked the
                               U.S. Postal Service Office of Inspector General (OIG) to
                               evaluate the program.

                               Our audit report titled Mail Transport Equipment Service
                               Center Decision Analysis Report, Performance and
                               Financial Benefits (Report Number TR-AR-01-003, dated
                               May 4, 2001) concluded the network would not achieve the



                                                    1
Mail Transport Equipment Service Center Network –                                  NL-AR-06-010
 Highway Transportation Routes – Greensboro


                               financial benefits anticipated by the DAR. We
                               recommended, in part, that management reduce cost by
                               analyzing transportation requirements and related costs
                               associated with the network.

 Objectives, Scope,            This audit is a follow-up to our May 4, 2001, report. Our
 and Methodology               objectives were to determine if management implemented
                               our recommendations and whether there were additional
                               opportunities to save money. This report focuses on
                               Greensboro MTESC transportation requirements. The
                               Greensboro MTESC provides service to numerous mail
                               processing facilities in North Carolina and Virginia. On
                               April 1, 2006, Postal Service officials realigned operations.
                               As a result, contract responsibility for Greensboro MTESC
                               routes transferred from the Eastern Area to the Capital
                               Metro Area.

                               Using Postal Service computer-generated data, we
                               determined trip dispatch, arrival, and load efficiency and
                               identified potential trips for consolidation or elimination. We
                               did not audit or comprehensively validate the data; however,
                               we noted several control weaknesses that constrained our
                               work. For example, some computer files had missing
                               records and inaccurate trailer load volumes. Even though
                               data limitations constrained our work, we were able to
                               partially compensate by applying alternate audit procedures,
                               including source document examination, observation,
                               physical inspection, and discussion with responsible
                               officials.

                               During our work, we interviewed Postal Service
                               Headquarters officials in Network Operations Management
                               and managers and employees in the Eastern Area and
                               Capital Metro Operations and at the Greensboro MTESC.
                               We reviewed relevant Postal Service policies, procedures,
                               and directives; observed and photographed operations; and
                               consulted with subject-matter experts. We performed our
                               work in close coordination with the Network Operations
                               Management transportation assessment team and area
                               personnel, discussed our observations and conclusions with
                               various management officials, and included their comments
                               where appropriate.

                               We conducted work associated with this report from
                               March through September 2006 in accordance with



                                                    2
Mail Transport Equipment Service Center Network –                                NL-AR-06-010
 Highway Transportation Routes – Greensboro


                               generally accepted government auditing standards and
                               included such tests of internal controls as we considered
                               necessary under the circumstances.

 Prior Audit Coverage          Since March 2005, the OIG has worked with the Postal
                               Service to reduce MTESC costs. As a result, we have
                               issued four audit reports that identified potential savings
                               exceeding $12 million. For more detailed information about
                               these audits, see Appendix A.




                                                    3
Mail Transport Equipment Service Center Network –                                  NL-AR-06-010
 Highway Transportation Routes – Greensboro


                                       AUDIT RESULTS
 Highway Contract               Postal Service Headquarters implemented our
 Management                     recommendations and is aggressively pursuing
                                opportunities to reduce MTESC network costs. (See
                                Appendices B and C.) Network Operations Management
                                transportation assessment teams, supplemented by area
                                personnel, are continuing to analyze network transportation
                                costs in order to reduce operating expense and improve
                                efficiency.



   The MTESC network is a
         system of 22
      contractor-operated
   service centers designed
    to supply equipment to
   mail processing facilities
          nationwide.

    Photograph of a truck
       arriving at the
    Greensboro MTESC,
        March 2006.




                                Although Network Operations Management officials
                                continually strive to optimize transportation with aggressive
                                cost-cutting efforts such as their MTESC network cost and
                                efficiency assessments, transportation requirements are
                                dynamic and constantly change. Based on our examination
                                of scheduled shipments and our physical examination of
                                trailer utilization, we believe additional potential for trip
                                cancellation and savings exists without jeopardizing service
                                or operational flexibility. Specifically, we believe that the
                                Postal Service could save approximately $1,607,510 over
                                the term of existing Greensboro MTESC highway contracts
                                by canceling, not renewing, or modifying 73 unnecessary
                                round trips.

                                Postal Service policy requires transportation managers to
                                balance service and cost. The Postal Service could
                                eliminate the 73 trips without affecting service because they
                                did not optimize some trailer loads and could consolidate
                                equipment on other trips.



                                                    4
Mail Transport Equipment Service Center Network –                                      NL-AR-06-010
 Highway Transportation Routes – Greensboro


 Cooperative Effort            As a result of our continuing efforts to partner with and bring
                               value to the Postal Service, we had ongoing communication
                               with area officials throughout our audit and provided the
                               officials with a list of our specific trip proposals. We then




      The interior of an
    underutilized inbound
         trailer at the
     Greensboro MTESC,
        March 6, 2006.




                               discussed our proposals and area operational needs with
                               officials and made appropriate adjustments. As a result of
                               this cooperation, area officials initially agreed to eliminate
                               the 62 trips outlined in Appendices D and E and are
                               currently assessing the 11 trips listed in Appendix F. Our
                               trip cancellation proposals are summarized below:

                                                    PROPOSED TRIP ELIMINATIONS
                                                     BY ELIMINATION CATEGORY

                                                              Number
                                    Elimination Category      of Trips   Appendix   Savings ($)

                                Postal Service identified
                                trip cancellations or
                                                                21          D          $450,935
                                modifications during the
                                audit.

                                Proposed trip
                                eliminations/substitutions                             1,078,651
                                                                41          E
                                with which area officials
                                agreed.

                                Proposed trip eliminations
                                which area officials agreed      11         F             77,924
                                to assess.

                                Total                            73                   $1,607,510

                                                              Figure 1




                                                    5
Mail Transport Equipment Service Center Network –                                  NL-AR-06-010
 Highway Transportation Routes – Greensboro


 Recommendations               We recommend the Vice President, Eastern Area
                               Operations, coordinate with the Vice President, Capital
                               Metro Operations, to:

                                   1. Verify the actual cancellation, modification, or
                                      substitution of the 21 trips management identified
                                      during our audit.

                                   2. Verify the actual cancellation, modification, or
                                      substitution of the 41 trips with which Postal Service
                                      managers agreed and provide the date action was
                                      taken.

 Management’s                  Management generally agreed with our findings,
 Comments                      recommendations, and potential savings. They stated that
                               they had eliminated or made substitutions for 53 of the
                               62 trips they had previously agreed to eliminate. They said
                               they eliminated 39 of the suggested trips on April 1, 2006,
                               and an additional 14 trips on August 1, 2006. They did not
                               address the remaining nine trips. They also agreed the trip
                               eliminations would potentially save $1,536,397. In
                               subsequent discussions, management explained that they
                               needed the remaining nine trips to accommodate
                               operational changes occurring after their initial agreement
                               and after the OIG issued the draft report. Management
                               provided supporting documentation. Management’s
                               comments, in their entirety, are included in Appendix G.

 Evaluation of                 Management’s comments are responsive to our findings
 Management’s                  and recommendations. Management’s actions taken or
 Comments                      planned meet the intent of our recommendations. We
                               acknowledge management’s partial agreement, as well as
                               the dynamic and ever changing nature of transportation
                               requirements. While we continue to believe our initial trip
                               reduction proposals and the associated potential savings
                               are valid, we will examine the additional documentation
                               management provided and work with management to
                               reconcile differences during the process of closing our
                               significant recommendations.

 Recommendation                    3. Verify actions taken on the 11 trips Postal Service
                                      managers agreed to assess and cancel or modify the
                                      trips as indicated by the assessment or document the
                                      reasons for retaining the trips.



                                                    6
Mail Transport Equipment Service Center Network –                                 NL-AR-06-010
 Highway Transportation Routes – Greensboro




 Management’s                  Management agreed with our recommendation. They
 Comments                      stated they would assess these 11 trips and report the
                               results within 30 days.

 Evaluation of                 Management’s comments are responsive to our findings
 Management’s                  and recommendations. Management’s actions taken or
 Comments                      planned should correct the issues identified in the findings.




                                                    7
Mail Transport Equipment Service Center Network –                                                                            NL-AR-06-010
 Highway Transportation Routes – Greensboro




                                                        APPENDIX A. PRIOR AUDIT COVERAGE

                                                                     Number of                                       Additional
                                                                       Trips                                           Trips
                                                                     Identified                                     Management
                                                           Date         for                               Trips      Identified        Trip          Trip
                                                           Final    Elimination                          Agreed          for        Management   With Which
                    Report                 Report         Report        or         Potential Savings      to by     Elimination      Agreed to   Management
                    Name                   Number         Issued    Modification       Identified      Management   During Audit      Assess      Disagrees

              MTESC Network –
             Equipment Processing        NL-AR-05-006     3/31/05                         $9,213,576

              MTESC Network –
         Highway Transportation Routes
             New York Metro Area         NL-AR-05-014     9/28/05       49                 1,025,812       17                           32

              MTESC Network –
         Highway Transportation Routes
              San Francisco, CA          NL-AR-06-003     3/23/06       77                 1,091,640       31           21                           25

              MTESC Network –
         Highway Transportation Routes
                 Memphis, TN             NL-AR-06-005     3/28/06       25                  699,397                                     25


                   Totals                                              151            $12,030,425         48            21              57          25




                                                                           8
Mail Transport Equipment Service Center Network –       NL-AR-06-010
 Highway Transportation Routes – Greensboro


          APPENDIX B. OVER-THE-ROAD CONTAINER POLICY LETTER




                                                    9
Mail Transport Equipment Service Center Network –        NL-AR-06-010
 Highway Transportation Routes – Greensboro


         APPENDIX C. REEMPHASIS OF OVER-THE-ROAD CONTAINER
                           POLICY LETTER




                                                    10
Mail Transport Equipment Service Center Network –                                                                                     NL-AR-06-010
 Highway Transportation Routes – Greensboro




                                 APPENDIX D. TRIP ANALYSIS DETAIL
       ADDITIONAL TRIPS IDENTIFIED BY POSTAL SERVICE MANAGEMENT DURING AUDIT


                                                                                                                     Proposed         Total
 Highway                                                                                                               Weekly       Projected
 Contract                                                                                                           Round Trip       Savings
  Route                                Destination Point                                       Contract Term        Eliminations   on Contract
   270CK                 Lynchburg, VA, Processing and Distribution Center                                               2              $57,671.43
   270CK        Labeling Services Incorporated (Postal Service customer), Raleigh, NC                                    3               69,486.78
   270CK                  Charlotte, NC, Processing and Distribution Center                                              8              204,036.09
   270CK              Charlotte, NC, Processing and Distribution Center Annex                                            3               84,321.04
               TOTAL IDENTIFIED BY POSTAL SERVICE FOR 270CK                                  4/1/2006 – 6/30/2008       16           $415,935.45

   270FK                          Greensboro, NC, Air Mail Center                                                        5               35,420.11
               TOTAL IDENTIFIED BY POSTAL SERVICE FOR 270FK                                  7/1/2006 – 6/30/2010        5            $35,420.11


                   TOTAL ADDITIONAL TRIPS IDENTIFIED BY
                              MANAGEMENT                                                                                21         $450,935.45




                                                                                        11
Mail Transport Equipment Service Center Network –                                                                                  NL-AR-06-010
 Highway Transportation Routes – Greensboro




                                      APPENDIX E. TRIP ANALYSIS DETAIL
                       PROPOSED TRIPS POSTAL SERVICE MANAGEMENT AGREED TO ELIMINATE


                                                                                                                    Proposed          Total
   Highway                                                                                                            Weekly        Projected
   Contract                                                                                                        Round Trip        Savings
    Route                                  Destination Point                                  Contract Term        Eliminations    on Contract
     270CK                    Roanoke, VA, Processing and Distribution Center                                           2                $51,217.22
     270CK                   Lynchburg, VA, Processing and Distribution Center                                          5                144,178.57
     270CK          Labeling Services Incorporated (Postal Service customer), Raleigh, NC                               1                 23,162.26
     270CK                    Charlotte, NC, Processing and Distribution Center                                         14               357,063.16
     270CK                Charlotte, NC, Processing and Distribution Center Annex                                       2                 56,214.03
     270CK                   Fayetteville, NC, Processing and Distribution Center                                       11               301,018.30
     270CK                            Charlotte, NC, North Park Annex                                                   3                 81,978.79
     270CK                              Charlotte, NC, Air Mail Center                                                  2                 56,734.53
                                 TOTAL AGREED TO FOR 270CK                                  4/1/2006 – 6/30/2008       40           $1,071,566.86

     270FK                            Greensboro, NC, Air Mail Center                                                   1                 $7,084.02
                                 TOTAL AGREED TO FOR 270FK                                  7/1/2006 – 6/30/2010        1               $7,084.02


                       TOTAL AGREED TO BY MANAGEMENT                                                                   41         $1,078,650.88




                                                                                    12
Mail Transport Equipment Service Center Network –                                                                         NL-AR-06-010
 Highway Transportation Routes – Greensboro




                                       APPENDIX F. TRIP ANALYSIS DETAIL
                         PROPOSED TRIPS POSTAL SERVICE MANAGEMENT AGREED TO ASSESS


                                                                                                                Proposed          Total
            Highway                                                                                               Weekly        Projected
            Contract                                                                                           Round Trip        Savings
             Route                              Destination Point                         Contract Term        Eliminations    on Contract
              270FK                Greensboro, NC, Processing and Distribution Center                               11              $77,924.25

                               TOTAL MANAGEMENT AGREED TO ASSESS                        7/1/2006 – 6/30/2010       11             $77,924.25




                                                                                13
Mail Transport Equipment Service Center Network –          NL-AR-06-010
 Highway Transportation Routes – Greensboro




                       APPENDIX G. MANAGEMENT’S COMMENTS




                                                    14
Mail Transport Equipment Service Center Network –        NL-AR-06-010
 Highway Transportation Routes – Greensboro




                                                    15
Mail Transport Equipment Service Center Network –        NL-AR-06-010
 Highway Transportation Routes – Greensboro




                                                    16
Mail Transport Equipment Service Center Network –        NL-AR-06-010
 Highway Transportation Routes – Greensboro




                                                    17
Mail Transport Equipment Service Center Network –        NL-AR-06-010
 Highway Transportation Routes – Greensboro




                                                    18
Mail Transport Equipment Service Center Network –        NL-AR-06-010
 Highway Transportation Routes – Greensboro




                                                    19
